'.                                        NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM

TO: AIGI           File Number: I95050018                                     Date: 17 March 2002
                                                                                                          I
Subject: Closeout Memo                                                                  Page 1 of 1


       There was no closeout written at the time this case was closed. The following information was
       extracted from the file in conformance with standard closeout documents.

       Our office was informed that the subject' was alleged to have embezzled state funds. The subject
       pleaded "No Contest" to the charge. The county c o d accepted his plea and NSF debarred him
       based on the conviction.

       Accordingly this case is closed.




           Marcus Rodriquez
       2
           Los Angeles


                    Prepared by:                   Cleared by:

                   Agent:          Attorney:     Supervisor:     AIGI
     Name:



 Signature &
    date:
                               NATIONAL SCIENCE FOUNDATII:
                                    4201 WILSON BOULEVARD
                                   ARLINQTON, VlRalNlA 22230
                                   March 18, 1996



        OmCEofW
      GENERALCOUNSEL
8                                                   D
Mr. Allen Yahr
Attorney at Law
1 5 2 6 0 Ventura Boulevard
Suite 1050
Sherman Oaks, California           91403

Re:    Notice of Suspension and Proposed Debarment of
       Mr. Marcus Arthur Rodriguez
Dear Mr. Yahr:
This letter serves as formal notice that the National Science
Foundation (NSF) has suspended your client, Marcus Arthur
Rodriguez, and is proposing to debar him from directly or
indirectly obtaining the benefits of Federal grants for a period
of three years from the date of this letter. A person who is
debarred will be excluded during the period of debarment from
Federal financial and non-financial assistance and benefits under
non-procurement Federal programs and activities. See 4 5 CFR
Sections 620.110 and 620.200. In addition, your client will also
be prohibited from receiving any Federal contracts or approved
subcontracts under the Federal Acquisition Regulations (FAR) at
48 CFR Subpart 9 . 4 for the period of this debarment. 4 5 CFR
Section 620.110(c). Debarment of an individual is effective
throughout the executive branch of the Federal Government. The
effect of suspension is the same as debarment, except that it is
for a temporary period of time pending completion of debarment
proceedings.
Reasons for Sumension and Debarment
Your client's suspension and debarment is based upon a referral
from our Office of Inspector General (OIG). The Foundation's
record demonstrated that Mr. Rodriguez committed irregularities
seriously reflecting on the propriety of further Federal
Government dealings with him, and that there is cause for his
suspension and debarment. The Foundation's current
administrative record indicates that he was the Deputy Director
of the Los Angeles County Museum of National History and
entrusted with responsibility for the safekeeping and proper
disbursement of public monies. In that capacity, he also acted
as an Authorized Organizational Representative for many federal
grants to the Museum. The investigation of this matter further



                       Telephone (703)306-1060      FAX (703) 306-0149
    E
        #   a


C


                dieclosed that he was criminally convicted for embezzling over
                $2,000,000 of public monies.
                Specifically:
                1. On July 12, 1995, a Felony Complaint was filed in the
                Municipal Court of Los Angeles Judicial District, County of Los
                Angeles, State of California, in the matter of P e o ~ l eof the
,       $       $                                               Case No.
                BA117636. A copy of the Complaint is enclosed and the
                allegations are hereby incorporated by reference. The Complaint
                charged your client with a total of 22 counts, including one
                count of grand theft, one count of loaning public money, one
                count of forgery of a document, one count of misappropriation of
                public monies, twelve counts of money laundering, one count of
                conspiracy to obstruct justice, one count of conspiracy to commit
                a crime, and four counts of grand theft of personal property, in
                violation of the California Penal Code.
                2.  On February 9, 1995, your client pled nolo contendre to all
                22 Counts in the Complaint.  A certified copy of the Municipal
                Court of Los Angeles Docket reflecting the Plea is attached and
                hereby incorporated by reference.
                3. On December 20, 1995, the Judge sentenced him to state prison
                for a total of seven years. (A copy of the Minute Order is
                attached). He was also ordered to pay restitution.
                Pesulatorv Basis for Suspension and Debarment
                45 CFR Section 620.305 provides that debarment may be imposed
                for:
                     (a) conviction of or civil judgment for:
                          (1) Commission of fraud or a criminal offense in
                     connection with obtaining, attempting to obtain, or
                     performing a public or private agreement or
                     transact ion;


                           (3) Commission of embezzlement, theft, forgery,
                     bribery, falsification or destruction of records,
                     making false statements, receiving stolen property,
                     making false claims, or obstruction of justice; or
                          ( 4 ) Commission of any other offense indicating a
                     lack of business integrity or business honesty that
                     seriously and directly affects the present
                     responsibility of a person.
                Your clientis conviction for embezzlement of $2,000,000 in public
                funds supports a cause for debarment under 45 CFR Sections
                                   .
    V

I
        620.305 (a)(1), (2), and (3) His convict ion ref lecta adversely on
        his integrity, honesty, and present responsibility in relation to
        Federal financial and non-financial assistance and benefits. The
        filing of the Complaint and his subsequent conviction also
        establish adequate evidence for his euspension. 45 CFR Sections
        620.400 and 620.405.
        Debarment must be for a period commensurate with the seriousness
        of the cause. 45 CFR Section 620.320(a). It should generally
        not exceed three years, but where circumstances warrant, a longer
        period may be imposed. 45 CFR Section 620.320. The burden of
        'proof is on the government to establish facts which justify
        debarment by a preponderance of the evidence. 45 CFR Section
        620.314(c). Where the proposed debarment is based upon a
        conviction, the standard shall be deemed to have been met. 4 5
        CFR Section 620.314 (c).
        Your client pled nolo contendre to embezzling $2,000,000 in
        public funds from the Los Angeles County Museum of National
        History. As a public official, he committed an extremely serious
        breach of the public trust. Because of the seriousness of this
        offense, we are proposing debarment for a period of three years.
        Procedures Governinq Pro~osedDebarment/Suswension
        The provisions of 45 CFR Sections 620.300 through 620.420 govern
        debarment and suspension procedures and decisionmaking. Under
        our regulations, your client has 30 days after receipt of this
        notice to submit, in person, or in writing, or through a
        representative, information and argument in opposition to his
        debarment. 45 CFR Section 620.313(a). Comments submitted within
        the 30-day period will receive full consideration and may lead to
        a revision of the recommended disposition. If we do not receive
        a response to this notice within the 30-day period, this
        debarment will become final.
        Any response should be addressed to me at the National Science
        Foundation, Office of General Counsel, 4201 Wilson Boulevard,
        Room 1265, Arlington, Virginia, 22230. For your information, we
        are attaching a copy of the Foundation's regulations on Non-
        procurement Debarment and FAR Subpart 9.4.
                                                -
                                           Sincerely,


                                           Lawrence Rudolph
                                                              .
                                           General Counsel
        Attachments (5)
        Complaint
        Municipal Court of Los Angeles Docket
        Minute Order
        Nonprocurement Debarment Regulations
        FAR Regulations
Y         MRR       7   ' 96         1 1 : 26     F R r Y LRDR MRJOR FRRUD D i U

II C                                                   '.    1
                                                                 .f                                               ( t




       Oate:            December 20, 1995
       #IWCSUBU:         JD Slj1m                                              JlDGE               R RAMSBYBR                           D . e u y C1.rk
                         D BDTIERIIEZ                                 Dsprry Sheriff               0 GRACB                                    Ulporter

                          BA117636-OX                                                       ( P e r t i 6 rd -1         cbsctd i f -1
                               -1.         Ot th. state of C8llfomie                                  C a r s 6 1 for P q l . 1
                                                 V8-                                                  WY         D'srrfcr *ttonWy:       J SHIbLgR, DpA /


                                                                                                      t a r a t 1 for Dd&c:
                         01          RODCiRfGWZ, MLRCOS ARTRUR /                                                               A X W R , PVT 4
                                                                                                                               x SAKDVIO, PUT /
                                     4 8 7 - A OSCTS; 424.1 OlCl';                '424.2 OlCP;
                                     470     OlCT1 1 8 6 . 1 0 A 12CTS:            1 8 2 . A 5 01CT




                                             PhS (CERT PLEA)         RlM             11-14-95
               *.we€ of- PPaaEDIWs
               Xatter n e t t h i s data for sentencing hearing aa certified open plea to this court.
               Probation is denied.                         Defendant is aentenced to &ate                        prfeon for a total. of 7
               years an folloue:

                         I h e court finds there to be aggravating circumstance6 and eelecta the EXOH
                         term of 4 year8 for the base term ae to Count 2 plum 3 years aa to the
                         enhancement pureuant to Penal Code Section 1 2 6 2 2 . 6 ( c ) .
                         As to Count8 1 anb 3, t h e Court eeleete t h e HIGH term of 3 yeera plus 3
                         years'ao to the enhancement pursuant to Penal Code Section 12022.6(c) to
                         run concurrent to the baee term.
                         As to count 4 , t h e Court s e l e c t s the m i d                   term of 3 years to run- concurrent
                         to the baee ter.

                                                       10, 11, 12, 13, 14, 15, 16, 17.~d z8, th
                         A@ to a u n t 8 5 , 6 , 7, 8, 9,
                         Court selects the mid t e n of 2 yeare to run concurrent to the b.na fern.
                         Ae to Counts i9, 20, 21 and 2 2 , the C o u r t impose6 and atays, pursuant to
                         Penal Code Section 654, the mid term o f 2 yeare.         said stay to become
                         permanent upon completion of baee eentence.
               The Court o d e z s the defendant to pay restitution in f u l l pursuant to Gooermxit
               Code Section 13967(c)- Additionally, the defendant is ordered to pay $1,000.00
               maetitution fine pureuant to Penal Code Section 1202.4, to be stayed.
               Stay of execution of state prison sentence granted to &muat~.11, 1996 a% 9104
                      Defendants credits to be calculated at that time.    Defendant waivee
               forthwith eentence.
               Counsel are ordered to return.

               Defendant remains remanded.




               01   REX
                              NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL

                                       October 2, 1995



      TO:       Anne C. Petersen
                Depu-i         '

   FROM:        L
                Inspector General

SUBJECT:        Proposed Debarment of Mr. Marcus Rodriguez



       On September 11, 1995, Mr. Marcus Rodriguez entered a plea of no contest to 22
counts of embezzlement of public hnds from the Los Angeles County Museum of Natural
History. Mr. Rodriguez will be sentenced on November 14, 1995 in the Superior Court of
Los Angeles County.

        Mr. Rodriguez was.the deputy director of the Los Angeles County Museum of
Natural History and acted as an Authorized Organizational Representative for many grants
received fiom federal agencies including 16 grants fiom the National Science Foundation
(NSF). NSF is the cognizant federal agency for the Los Angeles County Museum of
Natural History, and accordiigly NSF must take appropriate action to protect the
interests of all federal agencies. In his capacity as deputy director of the museum, Mr.
Rodriguez embezzled over $2,000,000. Although federal hnds were not embezzled, Mr.
Rodriguez's conduct overwhelmingly demonstrates that he is not a responsible person.

       Based on the criminal conviction of Mr. Rodriguez, we recommend that you, in
your capacity as NSF's debarment official, debar Mr. Rodriguez from any procurement or
nonprocurement financial assistance transaction for a period of at least three years.

        Please let us know what actions you will take in this matter.

Enclosures:     1. Copy of the criminal complaint filed against Mr. Rodriguez by the State
                   of California.

                2. Copy of the certified court docket showing all proceedings in the case.
   PAGE    2
                    1ST STORY of Level 1 printed in FULL format.
                    Copyright 1995 The Times Mirror Company
                                Los Angeles Times
                    September 12, 1995, Tuesday, Home Edition
SECTION: Metro; Part B; Page 3; Metro Desk
LENGTH: 559 words
HEADLINE: EX-MUSEUM OFFICIAL PLEADS NO CONTEST IN THEFT CASE;
CRIME: MAN WAS ACCUSED OF EMBEZZLING $2.1 MILLION PROM L.A. COUNTY
MUSEUM OF
NATURAL HISTORY AND ITS FOUNDATION OVER SIX YEARS.
BYLINE: By JOHN M. GLIONNA, TIMES STAFF WRITER
BODY :
   The former chief deputy director of the Los Angeles County
Museum of
Natural History pleaded no contest Monday to charges that he
embezzled $2.1
million from the museum and its foundation.
   Marcus Arthur Rodridguez, 53, of Glendale appeared in Los
Angeles Superior
Court in connection with 22 counts, including embezzlement,
forgery, misuse of
public funds, money laundering and conspiracy.
   Over a six-year period between July, 1988, and May, 1994,
prosecutors
contend, Rodriguez, with the help of a former secretary and the
foundation's
former chief accountant, skimmed funds from county money, museum
ticket sales
and private donations.
   While overseeing the museum foundation and a satellite facility,
the George
C. Page Museum in the Mid-Wilshire district, Rodriguez allegedly
used the stolen
money to buy three cars for himself and family members. He also
bought presents
such as jewelry for several friends and paid off thousands of
dollars in monthly
credit card bills.
   Sentencing was set for Nov. 14 in Los Angeles Superior Court.
Rodriguez faces
a maximum 12-year sentence.
   Prosecutors said Monday that they were pleased with the results.

   I1Yes, we're very happy," said Deputy Dist. Atty. Joseph D.
Shidler. "As far
as the court is concerned, a no-contest plea is exactly the same
and is treated
the same as a guilty plea."
   Also charged in the case are Marissa Meroney, 41, of Chino
Hills, the former
chief financial officer for the Museum of Natural History
Foundation, and
Cristina Elizabeth Coleman, 41, Rodriguez's former secretary.
   A preliminary hearing for both women is set for Oct. 2. Meroney
is charged
with two counts of conspiracy and one count of grand theft. Coleman
has been
charged with receiving stolen property and grand theft.
   Shidler said Rodriguez wrote checks for cashier's checks that
were made out
to Coleman, who was his secretary until 1992. The money was
funneled to accounts
under Meroneyls name or jointly under the names of both women,
Shidler said.
   PAGE    3
    Los Angeles Times, September 12, 1995       Los Angeles ~ i m e s
September 12, 1
   The irregularities surfaced in late 1994, shortly after James L.
Powell, new
       '



director of the 80-year-oldinstitution, noticed discrepancies in
financial
statements while revamping the museumls management and operating
procedures.
   In a prepared statement, Powell said Monday that the museum
plans to seek
reimbursement for the missing funds.
   "Of course, I deeply regret that any money was stolen from the
museum and
will continue vigorously to recover every penny. My decision to
tiqhten
financial procedures and then to inform the district attorney of my
evidence of
wrongdoing by Rodriguez was obviously the right one."
   James Gilson, vice president and general counsel of the Natural
History
~oundation,said Monday that the institution will soon file suit in
state court
to recover the funds as well as pursue "other possible sources of
recovery.
   Powell said he had no explanation as to what drove a
$92,000-a-yearmuseum
executive to such extremes. "1 can't put myself in his place,11he
said. "You and
I wouldn't have done that. And I can't understand someone who
would. Especially
at a time when the museum was laying off people and closing off
parts of
exhibits. It was unconscionable.^
   Prosecutor Shidler said the length of Rodriguez's      sentence
depends on the
sentencing judge .
   I1He1sstill got a roll of the dice on that one," he said.
LANGUAGE: ENGLISH
LOAD-DATE: September 13, 1995
                                                        I
                                                                        PAGE     2
                    1ST S'I, !Y of Level 1 printed in F, k format.
                     Copyright 1995 The Times Mirror Company
                                 Los Angeles Times
                    July 13, 1995, Thursday, Electronic Edition
SECTION: Part BB; Page 1
LENGTH: 574 words
HEADLINE: 3 CHARGED IN $2.1-MILLION EMBEZZLEMENT AT MUSEUM
dBYLINE:By JOHN GLIONNA, TIMES STAFF WRITER
BODY:
   The former chief deputy director of the Los Angeles County Museum   of Natural
History and two others were charged Wednesday in the embezzlement of   $2.1
million from the museum and its affiliated nonprofit foundation into   personal
accounts over a five-year period. Authorities said the suspects used   the money
to buy pricey cars, jewelry and pay off personal debts.
   The former director, Marcus Arthur Rodriguez, 53, was arrested outside his
Glendale home Wednesday on charges ranging from grand theft to misuse of public
mdney to money laundering and conspiracy. He was in custody on $2-million bail,
pending arraignment today in Los Angeles Municipal Court.
   Rodriguez, 53, had been placed on non-disciplinary administrative leave in
February after a three-month investigation of financial irregularities by the
Los Angeles County district attorney's office.
   Also charged were Marissa Meroney, 41, of Chino Hills, the former chief
financial officer for the Museum of Natural History Foundation, and Cristina
Elizabeth Coleman, 41, Rodriguez's former secretary.
   Coleman also is scheduled for arraignment today. She was being held in lieu
of $50,000. Meroney had not been detained but bail for her was recommended at
$600,000.
   Deputy Dist. Atty. Allen Field said the case against Rodriguez and the others
was filed after search warrants were served Feb. 24 on the museum and its
affiliate, the George C. Page Museum, site of the La Brea Tar Pits. Rodriguez
managed the Page museum.
   If convicted, Rodriguez faces up to 12 years in prison. The women face prison
terms of up to three years each.
   Coleman is charged with one count of grand theft and four counts of receiving
stolen property. She was arrested Wednesday at a Los Angeles County Department
of Beaches and Harbors facility in Marina del Rey, where she is a secretary.
   District attorney's investigators said Rodriguez reportedly channeled
museum and foundation funds into investment accounts in either his or Meroneyts
name. They said he bought three cars, paid off loans and credit card debts and
paid the tax debt of an unnamed relative.
       C
                                                                              PAGE      3
I.
                                 Is Angeles Times, July 13,   ,495

         "his was clearly a case where the responsibility of running the museum and
     .its foundation were given to Mr. Rodriguez. He took it gleefully and ran with
      it," said Field, head of the special investigations division of the district
     attorney's office.
           Rodriguez, Coleman and Meroney could not be reached for comment Wednesday.
           County supervisors reacted with shock to the charges.
        "It is an embarrassment to the county, the public, to the museum and to its
     many hard-working and honest employeesfn said Supervisor Deane Dana. "If these
     charges are substantiated in court, I will definitely demand that every cent
     stolen from the museum be returned as part of any sentence imposed."
         Prosecutors contend that Rodriguez wrote checks for cashier's checks made out
     tio Coleman, who was his secretary until 1992.
        James Powell, president and director of the Natural History Museum, said he
     discovered inconsistencies in museum financial records shortly after taking the
     helm last year.
        The museum operations are underwritten by county funds and money raised by a
     foundation set up specifically for the Natural History Museum, Powell said.
        W e discovered we could not reconcile the county's books with the
     foundation~sbooks, Powell said.
        He then contacted the county's lawyers, who referred him to the district
     attorney's office.
     LANGUAGE: ENGLISH
